    10/12/06       THU 10:35 FAX 423 241 3897                 OIG                           ***   HQ               igOUl
I
    DLS F 1325.8
    (08-93)
    United States Government                                                                 Department ofEnergy


    memorandum
           DATE:
                        October 12, 2006                                     Audit Report Number: OAS-L-07-01
      REPLY TO
      ATTN OF:        TG-32 (A06DN004)

      SUBJECT:        Audit of the Bonneville Power Administration's Conservation
                                                                                  and Renewables Discount and
                      Conservation Rate Credit Programs
             TO:      Administrator, Bonneville Power Administration

                     TNTRODUCTION AND OBJECTTVE

                      Bonneville Power Administration (Bonncville) is responsble
                                                                                       for marketing
                      power produced from the Federal Columbia River Power System (System). electric  About 40
                      percent of the electric power used in the Northwest comes
                                                                                   from Bonneville. Since
                      Bonneville has a statutory responsibility for meeting its preference
                                                                                            customers'
                     increases in electricity needs, energy conservation is
                                                                            vital in order to reduce the
                     amount of power Bonneville has to provide to users of the
                                                                                   System. Moreover,
                     conservation defers the need to build new, more expensive
                                                                                   generation and reduces the
                     risk of cost increases from high market prices.

                     The Pacific Northwest Electric Power Planning and
                                                                           Conservation Act of 1980 (Act)
                     requires the region to encourage and achieve energy conservation.
                    requires the establishment of a council which sets conservation        The Act also
                                                                                       goals for the region.
                    Bonneville's portion of the regional conservation
                                                                        goal was to reduce customer
                    consumption by 236 average megawatts of energy
                    timeframe. To do so, Bonneville established several  during the .2002 through 2006
                                                                           conservation programs
                    administered by its Energy Efficiency organization. Among
                                                                                    them was the
                    Conservation and Renewables Discount (C&RD) Program,
                                                                                  which had a $155 million
                    budget to conserve 75 average megawatts of electricity over
                                                                                   5 years. This program
                    applied a discount per kilowatt-hour to the bills of Bonneville's wholesale power
                    customers who take actions to further develop conservation
                                                                                  in the region. Bonneville's
                    customers were obligated to spend their discount
                                                                       implementing approved conservation
                    measures, such as compact fluorescent lighting and heat
                                                                               pumps. Bonneville concluded
                   its C&RD Program at the end of Fiscal Year (FY) 2006
                                                                              and replaced it with the
                   Conservation Rate Credit (CRC) Program for FYs 2007
                                                                              through 2009, with the
                   intention of making the program more cost effective. Therefore,
                                                                                       the objective of thi
                   audit was to determine whether Bonneville had approached
                                                                                 its C&RD and CRC
                   Programs in the most cost-effective manner.

                   CONCLUSIONS AND OBSERVATIONS

                   Bonneville has made positive strides in improving the
                                                                         cost-effectiveness of the CRC
                   Program in comparison to the C&RD Program; however,
                                                                            there may be potential for
10/12/06   THU 10:36 FAX 423 241 3897                  OIG                           -»**- HQ            Z[002


               further cost savings. Also, Bonneville's efforts to enhance
                                                                           oversight and validate data
"              in the CRC Program could be improved.

                                                 Potential Cost Savings
               While the C&RD Program appeared to be on track to
                                                                     meet its goal for energy
              conservation, we noted instances in the C&RD Program
                                                                       where Bonneville had paid
              customers more than the cost to implement conservation
                                                                       measures,
              which the cost exceeded the value ofthe energy savings obtained or for measures in
                                                                                 from the measure.
              Of the $73.7 million in "deemed" measures (measures where
                                                                            it was possible to
              quantify the per unit energy savings) offered in the C&RD
                                                                         program, as much as $16
              million -- which  represents 35 percent of the measures -- were reimbursed
                                                                                         to
              customers above the cost ofthe measures. Further, we found
                                                                         that as much as
              $15  million - which represents    45 percent of the measures -- were reimbursed at
              than the value of the energy savings. Specifically,                                 more
                                                                    these were measures with a
              benefit/cost ratio of less than 1.0.
              To its credit, Bonneville acted to improve
              conservation efforts in the CRC Program. the cost effectiveness of its energy
                                                         The percentages 6f approved CRC Program
              measures with the deficiencies noted above were
                                                               lower t4an the percentages we found
              in the C&RD Program. However, further efficiencies
                                                                    appear possible. For example,
             in the CRC Program Bonneville's most recent data from the
                                                                           year 2000 showed that
             approximately 14 percent of approved measures may
                                                                   still be reimbursed at levels
             above the measures' cost, and approximately 16 percent still had benefit/cost ratios
             less than 1.0.                                                                       of

             These conditions still existed because, prior to selecting
                                                                         measures for the CRC
            Program, Bonneville did not examine all the measures
                                                                      for reimbursement levels above
            the cost of the measures or for benefit/cost ratios of less than 1.0.
                                                                                    A contributing
            factor was that Bonneville did not have up-to-date cost data for its measures to use in
            such examinations. Therefore, we suggest that Bonneville update its data and
            reevaluate CRC measures to ensure that reimbursement
            measures are cost-effective.                                levels are reasonable and


                                                Improved Oversiaht
             Although Bonneville plans to increase its oversight and data validation
             Program, we identified areas for improvement. In the                        in the CRC
                                                                      C&RD Program, Bonneville
            relied on Certified Public Accountants hired by the
                                                                  customer or state auditors to
            examine the basis the customer used to support its
                                                                 claimed energy savings and credit
            amount, and to attest that the customer had policies,
                                                                   procedures, and an accounting
            system in place to support its'program. In the
                                                             CRC Program Bonneville plans to
            replace its reliance on outside attestations with making
            customers. The visit will include reviewing customer an annual visit to participating
                                                                     cost and energy savings data for
            accuracy, thereby increasing oversight and data validation. Wile this is
           commendable, we found that Bonneville was not
                                                               yet adequately prepared to take this
           action. For example, Bonneville planned to
                                                          assign responsibility for implementing the
           increased oversight to staff already occupied with
                                                               conducting oversight 6 n a different
           conservation program. Even though a Bonneville
                                                                official stated the increased
           oversight will double the staffs workload, Bonneville
                                                                     had no specific plan for how the

                                                  2
10/12/06   THU 10:36 FAX 423 241 3897                  OIG                          -,** HQ                103003




              staff could adequately accommodate the additional CRC work with existing
                                                                                              resources,
              such as employing a risk-based strategy for conducting the site visits. Additionally,
              Bonneville lacked guidelines for its planned data validation, such as a statistical
              sampling approach to ensure accuracy. Therefore, we suggest that Bonneville prepare
              and implement a risk-based CRC Program oversight plan, including a statistical
              sampling approach to achieve its data validation goal. This would provide Bonneville
              with increased assurance that customers are achieving their stated conservation savings
              and spending their conservation rate credits appropriately.

              SCOPE AND METHODOLOGY

             The audit was performed from March to September 2006. The scope of the audit
             included the 2002 through 2006 C&RD Program and the 2007 through 2009 CRC
             program. To accomplish this audit, we reviewed and analyzed the conservation
             measures used in the C&RD program and measures approved for the CRC program.
             Further, we reviewed related laws, regulations, policies and procedures, and
             interviewed personnel responsible for Bonncville's Coqnsqration Programs.

              We conducted the audit in accordance with generally accepted Government auditing
             standards for performance audits and included tests of internal controls and
             compliance with laws and regulations to the extent necessary to satisfy the audit
             objective. Because our review was limited, it would not necessarily have disclosed
                                                                                                    all
             internal control deficiencies that may have existed at the time of our audiL We
             assessed the Department of Energy's compliance with the Government Performance
             and Results Act of 1993 and found that Bonneville had established performance
             measures intended to ensure that it is achieving its conservation goals cost-effectively.
             Due to Bonneville's reliance on attestations from Certified Public Accountants
                                                                                              and
             state auditors hired by the customer for data validation and oversight, we did not
             conduct reliability assessments on the computer processed data.

             An exit conference was held with officials from the Bonneville Power Administration
             on September 11, 2006.

            We appreciate the cooperation of your staff during our review. Because no formal
            recommendations are being made in this report, a formal response is not
                                                                                    required.




                                                    redrick G. Pieper, Director
                                                   Energy, Science and Environmental
                                                     Audits Division
                                                   Office of Inspector General

            cc:    Deputy Secretary
                   Chief of Staff
                   Team Leader,.Audit Liaison Team, CF-1.2
                   Bonneville Power Administration Liaison Office
                   Audit Liaison, Bonneville Power Administration

                                                   3
